POEF.J125.8f
(08-93)
United States Goverment                                                                Department of Energy


Memorandum                                                                         OFFICE OF INSPECTOR GENERAL

          DATE:   April 22, 2003
    REPLY TO
     ATTN   OF:   IG-34 (A03SC017)                        Audit Report Number: OAS-L-03-13

    SUBJECT:      Audit of Performance Measures in the Office of Science

           TO:    Director, Office of Science, SC-1


                  The purpose of this report is to inform you of the results of our audit of Office of
                  Science performance measures. This audit was initiated in January 2003, and
                  fieldwork was conducted through March 2003 at Departmental Headquarters and
                  Brookhaven National Laboratory (Brookhaven). We also conducted limited audit
                  work at Headquarters on performance measures for the Stanford Linear Accelerator
                  Center (SLAC) and Lawrence Berkeley National Laboratory (Berkeley). The audit
                  methodology is described in an attachment to this report.

                  INTRODUCTION AND OBJECTIVE

                  The Department of Energy's (Department) Office of Science (Science) leads the nation,
                  in its support for the physical sciences, and is a significant contributor in the fields ofs J
                  computation, biology, and environmental sciences. Science conducts its research at
                  universities, private research facilities, and the Department's own national laboratories.
                  In Fiscal Year (FY) 2002, Science provided its 10 national laboratories nearly
                  $2 billion in funding.

                  Under the Government Performance and Results Act of 1993, the Department is
                  required to establish annual performance measures and report on actual results
                  achieved. The overall quality of the Department's performance measures has, for the
                  last several years, been reported to the President and the Congress as a serious
                  management challenge. In light of these concerns, the objective of our audit was to
                  determine whether Science performance measures reflected overall program
                  performance.

                  CONCLUSION AND OBSERVATIONS

                  Based on the results of our limited review, nothing came to our attention to indicate
                  that Science performance measures did not reflect overall program performance. The
                  results of our survey work, which included reviewing a sample of performance
                  measures, found that Science performance expectations generally flowed down into
                  the scope of work at the national laboratories. We also found that the performance
                  measures were, for the most part, output-oriented and measurable, and that overall
                  reported performance results were valid. We did, however, note minor issues related
                  to certain measures.
                                         -2-

Specifically, the language and usefulness of the measures we reviewed could be
improved. The use of non-technical language, the definition of subjective terms, and
the inclusion of baselines from which to measure progress could make the measures
more understandable and useful. For example, one measure called for Science to
continue construction of the Center for Comparative and Functional Genomics at the
Oak Ridge National Laboratory. The measure, however, did not include any baseline
information or targeted performance against which management could determine
progress.

We also noted an instance where a performance measure and its associated result were
inaccurately reported. While Science reported in the FY 2002 Performanceand
Accountability Report that it had completed construction of the Linac Test Area at
Brookhaven, we learned that construction is not scheduled for completion until
FY 2003. Furthermore, that particular performance measure should have been
associated with the Fermi National Accelerator Laboratory, not Brookhaven.

The above areas were discussed with officials from the Office of Science on
March 27, 2003.

We appreciate the cooperation of your staff during our review. If you have any
questions regarding our audit, please contact Brian Boos at (301) 903-3858 or
Kevin Majane at (301) 903-4065.




                                       Rickey R. Hass, Director
                                       Science, Energy, Technology,
                                         and Financial Audits
                                       Office of Audit Services
                                       Office of Inspector General

cc:    Audit Liaison, Office of Science, SC-62
       Team Leader, Audit Liaison, ME-2.1




                                   2
                                                                                      Attachment

METHODOLOGY

To accomplish the audit objective we:

   *   Reviewed the Government Performance and Results Act of 1993, Office of Management
       and Budget Circular A-11, the President's Management Agenda, the Department's
       performance measure guidance, and related reports from the Office of Science and the
       National Academy of Sciences;

   * Reviewed a sample of Science FY 2002 revised final performance targets and, where
     applicable, reported performance results in the Department's FY 2003 Annual
     Performance Plan, the SOLOMON database, and the FY 2002 Performance and
     Accountability Report;

   *   Reviewed the contracts and Field Work Proposals for Brookhaven, SLAC, and Berkeley;

    * Reviewed documentation supporting the reported performance results; and

    * Held discussions with Headquarters officials from the Office of Science, Office of
      Management, Budget, and Evaluation, and laboratory federal and contractor personnel.


The audit was performed in accordance with generally accepted Government auditing standards
for performance audits and included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit objective. Accordingly, we assessed
controls related to the projects selected for review. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. Since computer processed data was not the primary support used to meet our audit
objective, we performed a limited assessment of data reliability. An exit conference was held on
March 27, 2003.




                                            3
   05/02/03           11:20 FAX 301 903 4656               CAPITAL REGION                 -   FORS FIVEA            ]002



DOE F .25.8
   (8-e9) "
EFO (07-90)

United States Government                                                                         Department of Energy

Memorandum
              DATE:
                       MAY 02 2003
      REPLY TO:       IG-34 (A03SC017)

       SUBJECT:       Final Report Package for "Audit of Performance Measures in the Office of Science"
                      Audit Report No.: OAS-L-03-13

                TO:   Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services


                          Attached is the required final report package on the subject audit. The pertinent details are:

                          1.     Actual Staff days:              128

                                 Actual Elapsed days:             98

                          2. Names of OIG and/or contractor audit staff:

                                 Assistant Director:     George W. Collard
                                 Team Leader:            Kevitn Majane
                                 Auditor-in-Charge:      Brian Boos
                                 Audit Staff:            Katie Shaull

                          3. Coordination with Investigations and Inspections:

                                 Investigations:         Vera Shepard - January 9, 2003 and April 23, 2003

                                  Inspections:           Henry Minner - January 9, 2003 and April 23, 2003




                                                                        RickeR. Hass, Director
                                                                        Science, Energy, Technology,
                                                                          and Financial Audits
                                                                        Office of Audit Services
                                                                        Office of Inspector General

                          Attachments:
                          1. Final Report (3)
                          2. Monetary Impact Report
                          3. Audit Project Summary Report
                          4. Audit Database Information Sheet
05/02/03       11:21 FAX 301 903 4656                         CAPITAL REGION                        -   FORS FIVEA                       j@003




                                                                                                                       Attachment 2

                              MONETARY IMPACT OF REPORT NO.: OAS-L-03-13


         1. Title of Audit:       Audit of Performance Measures in the Office of Science

         2. Region/Office:        Science. Energy. Technology, and Financial Audits

         3. Project No.:          A03SC017

         4. Type of Audit:

                Financial:                                              Performance:        X
                   Financial Statement                                    Economy and Efficiency
                   Financial Related                                      Program Results                              X
                Other (specify type):

   5.

                                                                                                                   MGT.           POTENTIAL
               FINDING                     BETTER USED                           QUESTIONED COSTS                POSITION          BUDGET
                                                                                                                                   IMPACT
                                                   Recurrin
   (A)             (B)              (C)    (D)       (E)         (F)        (G)           (H)             (I)       (J)                   (K)
                   Title           One    Amount     No.        Total    Questioned   Unsupported        Total   C=Concur                Y=Yes
                                   Time    Per       Yrs.      Amount     Portion       Portion                  N=Noncon                N=No
                                           Year                                                                  U=Undec
         N/A                                                   N/A                                      N/A




   TOTALS--ALL FINDINGS           $0      5$0.                 $0        50           5   .              o$0       ;         -    .. .




    6. Remarks: There is no current monetary impact or potential future savings.

    7. Contractor:         _10.                                     Approvals:
    8. Contract No.:                                                  Division Director                                / /       .,
                                       ~____~_______                  & Date
    9. Task Order No.:                                                Technical Advisor & 1
                                                                      Date                               _
_.   05/02/03    11:21 FAX 301 903 4656                               CAPITAL REGION                                      -.       FORS FIVEA                       16004

                                                   Office of the Inspector General (01G)
                                          Audit Project Office Summary (APS)
                                                                                                                                                                     Page 1
 Report run on:              April 30, 2003 10:35 AM


     Audit#: A03SC017      Ofc:           FOA        Title: OFFICE OF SCIENCE PERFORMANCE MEASURES



                                               --------------  Planned ----------------                                                                Actual
                                                 Profile    End of Survey    Revised

      Entrance Conference:                      01-DEC-02                14-JAN-03                       14-JAN-03                             14-JAN-03

      Survey Completed:                                                                                  14-MAR-03

      Field Work Complete:
     Draft Report Issued:                                                                                                                      27-MAR-03

     Exit Conference:
     Completed with Report:                     31-MAY-03                  22-APR-03                     22-APR-03                             22-APR-03            (R     )
     --------- Elapsed Days                              181                              98                                                             98
      ----------- Staff Days:                                 0                            0                                                            128

      Date Suspended:                                                Date Terminated:
      Date Reactivated:                                             Date Cancelled:
      DaysSuspended(Cur/Tot):                      0 (             ) Report Number:                      OAS-L-03-13
     Rpt Title:     AUDIT OF PERFORMANCE MEASURES IN THE OFFICE OF SCIENCE


                                                                                                                               3......   .I.                    .     ..    .


     Aud Type:        Not Found
     Category: SC     Not Found                                                       AD: .    530               MAJANE
     DOE-Org:         Not Found                                                       AIC:     670               BOOS
     Maj Iss:  103    PERFORMANCE MANAGEME                                            HDQ-Mon: 421               SCHULMAN
      Site:       MSA MULTI-SITE AUDIT                                                ARM:     459               COLLARD



          Task No:
          Task Order Dt:                                            CO Tech. Rep:
          Orig Auth Hrs:                                            Orig Auth Costs:
          Current Auth:                                             Current Auth Cost:
          Tot Actl IPR Hr:                                          Tot Actl Cost:

                           ,I'3   "   .    ".J4-          .       '' i • L"'OW ,               ,




                    MAVImR
                    Total:                                       .t1-PR0
                                                              128.01


                                                                           I,. ...
                                                                            3.... .....        . .   .    :...   ......                        . . .
05/02/03    11:22 FAX 301 903 4656               CAPITAL REGION                -*   FORS FIVEA             o005




                                                                                                 Attachment 4

                            AUDIT DATABASE INFORMATION SHEET


       1. Project No.: A03SC017

       2. Title of Audit: Audit of Performance Measures in the Office of Science

       3. Report No./Date: OAS-L-03-13, April 22, 2003

       4. Management Challenge Area: Performance Management

       5. Presidential Mgmt Initiative: Budget and Performance Integration

       6. Secretary Priority/Initiative: Supports DOE Mission

       7. Program Code: SC

       8.   Location/Sites: Headquarters, Brookhaven National Laboratory (BNL), Stanford Linear
            Accelerator Center (SLAC), and Lawrence Berkeley National Laboratory (LBNL)

       9. Finding Summary:

                Based on the results of our limited review, nothing came to our attention to indicate that
                Science performance measures did not reflect overall program performance. The results
                of our survey work, which included reviewing a sample of performance measures, found
                that Science performance expectations generally flowed down into the scope of work at
                the national laboratories. We also found that the performance measures were, for the
                most part, output-oriented and measurable, and that overall reported performance results
                were valid. We did, however, note minor issues related to certain areas. These areas
                were discussed with officials from the Office of Science on March 27, 2003.

       10. Keywords:

            *   Performance Measures
            *   Government Performance and Results Act of 1993
            *   GPRA
            *   Office of Science
            *   Science
            *   Brookhaven National Laboratory
            *   Stanford Linear Accelerator Center
            *   Lawrence Berkeley National Laboratory
DOE F 1325.8
(08-93)
United States Government                                                           Department of Energy


Memorandum                                                                    OFFICE OF INSPECTOR GENERAL


        DATE:   April 22, 2003
    REPLY TO
     ATTN OF:   IG-34 (A03SC017)                       Audit Report Number: OAS-L-03-13
    SUBJECT:    Audit of Performance Measures in the Office of Science

          TO:   Director, Office of Science, SC-1


                The purpose of this report is to inform you of the results of our audit of Office of
                Science performance measures. This audit was initiated in January 2003, and
                fieldwork was conducted through March 2003 at Departmental Headquarters and
                Brookhaven National Laboratory (Brookhaven). We also conducted limited audit
                work at Headquarters on performance measures for the Stanford Linear Accelerator
                Center (SLAC) and Lawrence Berkeley National Laboratory (Berkeley). The audit
                methodology is described in an attachment to this report.

                INTRODUCTION AND OBJECTIVE

                The Department of Energy's (Department) Office of Science (Science) leads the nation
                in its support for the physical sciences, and is a significant contributor in the fields of
                computation, biology, and environmental sciences. Science conducts its research at
                universities, private research facilities, and the Department's own national laboratories.
                In Fiscal Year (FY) 2002, Science provided its 10 national laboratories nearly
                $2 billion in funding.

                Under the Government Performance and Results Act of 1993, the Department is
                required to establish annual performance measures and report on actual results
                achieved. The overall quality of the Department's performance measures has, for the
                last several years, been reported to the President and the Congress as a serious
                management challenge. In light of these concerns, the objective of our audit was to
                determine whether Science performance measures reflected overall program
                performance.

                CONCLUSION AND OBSERVATIONS

                Based on the results of our limited review, nothing came to our attention to indicate
                that Science performance measures did not reflect overall program performance. The
                results of our survey work, which included reviewing a sample of performance
                measures, found that Science performance expectations generally flowed down into
                the scope of work at the national laboratories. We also found that the performance
                measures were, for the most part, output-oriented and measurable, and that overall
                reported performance results were valid. We did, however, note minor issues related
                to certain measures.
                                         -2-

Specifically, the language and usefulness of the measures we reviewed could be
improved. The use of non-technical language, the definition of subjective terms, and
the inclusion of baselines from which to measure progress could make the measures
more understandable and useful. For example, one measure called for Science to
continue construction of the Center for Comparative and Functional Genomics at the
Oak Ridge National Laboratory. The measure, however, did not include any baseline
information or targeted performance against which management could determine
progress.

We also noted an instance where a performance measure and its associated result were
inaccurately reported. While Science reported in the FY 2002 Performance and
Accountability Report that it had completed construction of the Linac Test Area at
Brookhaven, we learned that construction is not scheduled for completion until
FY 2003. Furthermore, that particular performance measure should have been
associated with the Fermi National Accelerator Laboratory, not Brookhaven.

The above areas were discussed with officials from the Office of Science on
March 27, 2003.

We appreciate the cooperation of your staff during our review. If you have any
questions regarding our audit, please contact Brian Boos at (301) 903-3858 or
Kevin Majane at (301) 903-4065.




                                        Rickey R. Hass, Director
                                        Science, Energy, Technology,
                                          and Financial Audits
                                        Office of Audit Services
                                        Office of Inspector General

 cc:    Audit Liaison, Office of Science, SC-62
        Team Leader, Audit Liaison, ME-2.1




                                    2
                                                                                      Attachment

METHODOLOGY

To accomplish the audit objective we:

   *    Reviewed the Government Performance and Results Act of 1993, Office of Management
        and Budget Circular A- 1, the President's Management Agenda, the Department's
        performance measure guidance, and related reports from the Office of Science and the
        National Academy of Sciences;

   *    Reviewed a sample of Science FY 2002 revised final performance targets and, where
        applicable, reported performance results in the Department's FY 2003 Annual
        PerformancePlan, the SOLOMON database, and the FY 2002 Performanceand
        Accountability Report;

    *   Reviewed the contracts and Field Work Proposals for Brookhaven, SLAC, and Berkeley;

    *   Reviewed documentation supporting the reported performance results; and

    * Held discussions with Headquarters officials from the Office of Science, Office of
      Management, Budget, and Evaluation, and laboratory federal and contractor personnel.


The audit was performed in accordance with generally accepted Government auditing standards
for performance audits and included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit objective. Accordingly, we assessed
controls related to the projects selected for review. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. Since computer processed data was not the primary support used to meet our audit
objective, we performed a limited assessment of data reliability. An exit conference was held on
March 27, 2003.




                                            3
DOE F 1325.8
(08-93)
United States Government                                                           Department of Energy


Memorandum                                                                     OFFICE OF INSPECTOR GENERAL


         DATE:   April 22, 2003
    REPLY TO
     ATTN OF:    IG-34 (A03SC017)                      Audit Report Number: OAS-L-03-13
    SUBJECT:     Audit of Performance Measures in the Office of Science

          TO:    Director, Office of Science, SC-1


                 The purpose of this report is to inform you of the results of our audit of Office of
                 Science performance measures. This audit was initiated in January 2003, and
                 fieldwork was conducted through March 2003 at Departmental Headquarters and
                 Brookhaven National Laboratory (Brookhaven). We also conducted limited audit
                 work at Headquarters on performance measures for the Stanford Linear Accelerator
                 Center (SLAC) and Lawrence Berkeley National Laboratory (Berkeley). The audit
                 methodology is described in an attachment to this report.

                 INTRODUCTION AND OBJECTIVE

                 The Department of Energy's (Department) Office of Science (Science) leads the nation
                 in its support for the physical sciences, and is a significant contributor in the fields of
                 computation, biology, and environmental sciences. Science conducts its research at
                 universities, private research facilities, and the Department's own national laboratories.
                 In Fiscal Year (FY) 2002, Science provided its 10 national laboratories nearly
                 $2 billion in funding.

                 Under the Government Performance and Results Act of 1993, the Department is
                 required to establish annual performance measures and report on actual results
                 achieved. The overall quality of the Department's performance measures has, for the
                 last several years, been reported to the President and the Congress as a serious
                 management challenge. In light of these concerns, the objective of our audit was to
                 determine whether Science performance measures reflected overall program
                 performance.

                 CONCLUSION AND OBSERVATIONS

                 Based on the results of our limited review, nothing came to our attention to indicate
                 that Science performance measures did not reflect overall program performance. The
                 results of our survey work, which included reviewing a sample of performance
                 measures, found that Science performance expectations generally flowed down into
                 the scope of work at the national laboratories. We also found that the performance
                 measures were, for the most part, output-oriented and measurable, and that overall
                 reported performance results were valid. We did, however, note minor issues related
                 to certain measures.
                                         -2-

Specifically, the language and usefulness of the measures we reviewed could be
improved. The use of non-technical language, the definition of subjective terms, and
the inclusion of baselines from which to measure progress could make the measures
more understandable and useful. For example, one measure called for Science to
continue construction of the Center for Comparative and Functional Genomics at the
Oak Ridge National Laboratory. The measure, however, did not include any baseline
information or targeted performance against which management could determine
progress.

We also noted an instance where a performance measure and its associated result were
inaccurately reported. While Science reported in the FY 2002 Performance and
Accountability Report that it had completed construction of the Linac Test Area at
Brookhaven, we learned that construction is not scheduled for completion until
FY 2003. Furthermore, that particular performance measure should have been
associated with the Fermi National Accelerator Laboratory, not Brookhaven.

The above areas were discussed with officials from the Office of Science on
March 27, 2003.

We appreciate the cooperation of your staff during our review. If you have any
questions regarding our audit, please contact Brian Boos at (301) 903-3858 or
Kevin Majane at (301) 903-4065.




                                        Rickey R. Hass, Director
                                        Science, Energy, Technology,
                                          and Financial Audits
                                        Office of Audit Services
                                        Office of Inspector General

cc:     Audit Liaison, Office of Science, SC-62
        Team Leader, Audit Liaison, ME-2.1




                                    2
                                                                                      Attachment

METHODOLOGY

To accomplish the audit objective we:

   *    Reviewed the Government Performance and Results Act of 1993, Office of Management
        and Budget Circular A-11, the President's Management Agenda, the Department's
        performance measure guidance, and related reports from the Office of Science and the
        National Academy of Sciences;

   *    Reviewed a sample of Science FY 2002 revised final performance targets and, where
        applicable, reported performance results in the Department's FY 2003 Annual
        PerformancePlan, the SOLOMON database, and the FY 2002 Performance and
        Accountability Report;

    *   Reviewed the contracts and Field Work Proposals for Brookhaven, SLAC, and Berkeley;

    *   Reviewed documentation supporting the reported performance results; and

    * Held discussions with Headquarters officials from the Office of Science, Office of
      Management, Budget, and Evaluation, and laboratory federal and contractor personnel.


The audit was performed in accordance with generally accepted Government auditing standards
for performance audits and included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit objective. Accordingly, we assessed
controls related to the projects selected for review. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. Since computer processed data was not the primary support used to meet our audit
objective, we performed a limited assessment of data reliability. An exit conference was held on
March 27, 2003.




                                            3
